                         U.S. Department of Agriculture
                             Office of Inspector General




       Controls over Outsourcing of
       Food and Nutrition Service’s
Supplemental Nutrition Assistance Program
 Electronic Benefits Transfer Call Centers




                                 Audit Report 27703-01-Te
                                                June 2011
                                United States Department of Agriculture
                                        Office of Inspector General
                                          Washington, D.C. 20250



DATE:             June 30, 2011

AUDIT
NUMBER:           27703-01-Te

TO:               Audrey Rowe
                  Administrator
                  Food and Nutrition Service

ATTN:             Katherine J. Day
                  Director
                  Office of Internal Controls, Audits and
                   Investigations

FROM:             Gil H. Harden /s/
                  Assistant Inspector General
                   for Audit

SUBJECT:          Controls over Outsourcing of Food and Nutrition Service’s Supplemental
                  Nutrition Assistance Program Electronic Benefits Transfer Call Centers


Summary

This report presents the results of our audit of the Food and Nutrition Service’s (FNS) controls
over the use of funds provided by the American Recovery and Reinvestment Act of 2009
(Recovery Act).1 Specifically, we examined the States that elected to use supplemental
Recovery Act State Administrative Expense (SAE) funding to support the operation of its
Supplemental Nutrition Assistance Program’s (SNAP) Electronic Benefits Transfer (EBT) call
centers. The Recovery Act increased the amount of SNAP benefits by 13.6 percent and provided
$290.5 million in funding for SAEs to handle the anticipated increase in SNAP caseloads for
fiscal years (FY) 2009 and 2010.

We initiated this audit in response to public concerns that several States with high unemployment
were outsourcing SNAP administrative services to foreign call centers and that funds provided
by the Recovery Act were potentially being used to operate foreign EBT call centers.2 The audit
objective was to determine whether Recovery Act funds for FNS SNAP EBT were used to


1
 Public Law 111-5, dated February 17, 2009.
2
 Foreign EBT call centers are located outside the United States or its territories, whereas domestic EBT call centers
are located within the United States or its territories.
Audrey Rowe                                                                                        2

support foreign EBT call centers and ascertain what, if any, actions should be taken by FNS to
address this issue.

We found that the Recovery Act did not require, nor did FNS establish, controls to ensure that
States using foreign call centers did not pay for such operations with Recovery Act funding. In
addition:

       ·   There were only five States that both used foreign call centers and received Recovery Act
           funds for EBT Issuance Costs (Issuance Costs include call center costs). (See exhibit A.)
       ·   Recovery Act funding for EBT Issuance Costs for these five States is relatively small
           (about $5.8 million, or 2 percent, of the $290.5 million SAE funding provided by the
           Recovery Act). (See exhibit A.)
       ·   The number of States using foreign call centers is decreasing, as States themselves have
           taken action to mitigate concerns about the use of foreign call centers.
       ·   Changing to domestic call centers may result in costly adjustments to longstanding
           State EBT contracts.
       ·   Recovery Act SAE funding expired at the end of FY 2010.
As a result, we are not making any recommendations. OIG provided the draft report to FNS for
comment to ensure accuracy and clarity. We incorporated revisions to this report based on the
June 16, 2011, technical comments provided by FNS. No further action or response is required.
We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.

Background

Authorized by the Food and Nutrition Act of 2008,3 SNAP serves as the primary source of
nutrition assistance for over 40 million low-income people. It enables participants to improve
their diets by increasing food purchasing power by using benefits that are redeemed via EBT at
authorized retail grocery stores across the country.

SNAP EBT allows a recipient to authorize transfer of his or her Government (SNAP) benefits
from a Federal account to a retailer account to pay for products received. SNAP EBT has been
implemented in all States since June 2004. The objective of EBT implementation was to create
an alternative to issuing food stamp coupons.

The Department of Agriculture administers SNAP at the Federal level through FNS. State
agencies administer the program at State and local levels and are responsible for various
program-related activities, including determinations of eligibility and allotments, and distribution
of benefits. Generally, States award contracts to private sector companies, referred to as prime
processors, to develop and operate the States’ EBT systems. These companies are usually
financial institutions or other organizations that already handle debit and credit card systems or
electronic funds transfer activities. Each State remains financially liable to FNS for the actions
of the State’s EBT processor and any subcontracted third party processor(s) involved in EBT.4

3
    As amended through Public Law 110-246, dated October 1, 2008.
4
    Title 7, Code of Federal Regulations (CFR), part 274.1(b)(1), dated January 1, 2009.
Audrey Rowe                                                                                           3


The following table presents the regular Federal appropriations for SNAP benefits and SAEs (in
billions of dollars5) for FYs 2009 and 2010:6

                  FY Appropriations for Benefits Appropriations for SAEs
                 2009          $45.6                         $2.8
                 2010          $49.6                         $3.0
                 Total         $95.2                         $5.8

The Recovery Act, enacted on February 17, 2009, made supplemental appropriations for job
preservation and creation, infrastructure investment, energy efficiency and science, assistance to
the unemployed, and State and local fiscal stabilization. Provisions for a temporary increase in
benefits under SNAP were included in the Recovery Act, as well as funding to assist with costs
associated with carrying out the increase in benefits.

The following table presents SNAP funding (in billions of dollars) provided by the Recovery Act
for FYs 2009 and 2010:

                  FY         Recovery Act Funding for             Recovery Act Funding for SAEs Related
                               Increase in Benefits                     to the Increase in Benefits
                 2009                  $4.8                                  $0.1445
                 2010                 $10.1                                  $0.1460
                 Total                $14.9                                  $0.2905

Our review focused on the $0.2905 billion ($290.5 million) provided by the Recovery Act for
SAEs in 2009 and 2010, specifically, those portions that supported EBT call centers.

The Office of Inspector General’s (OIG) role, as mandated by the Recovery Act, was to oversee
agency activities and to ensure that funds were expended in a manner that minimized risk of
improper use.

Objectives

To determine whether Recovery Act funds for FNS SNAP EBT are being used to support foreign
EBT call centers and ascertain what, if any, actions should be taken by FNS to address this issue.




5
    These amounts are exclusive of matched employment and training activities.
6
    Figures in tables are rounded.
Audrey Rowe                                                                                                         4


Details

The outsourcing debate is not rooted in the signing of the Recovery Act of 2009; concerns over
outsourcing have been ongoing for years. As early as 2004, a bill was introduced into Congress
with the purpose of encouraging U.S. companies to keep American jobs at home, despite the
production of services at lower costs in other countries.7 In April 2009, amid a widely
recognized economic recession, a news article reported that several States with high
unemployment were outsourcing food stamp (now SNAP) services. Specifically, a SNAP
recipient in Florida had raised concerns when her call to inquire about program benefits was
answered by a foreign call center. We initiated this audit in response to public concerns that
funds provided by the Recovery Act were being used to operate foreign EBT call centers.

We found, based on discussions with FNS officials, that there is no Federal law or regulation
prohibiting States from contracting with EBT processors that utilize foreign call centers.
Regulations8 provide that the State agencies are responsible for the implementation,
coordination, and management of EBT systems; each State is responsible for contracting for
EBT systems in a manner best suited for the State’s needs. Moreover, many current EBT
contracts that use foreign call centers are longstanding and were put in place during the initial
implementation of EBT (2004), long before the Recovery Act was enacted in 2009.

While FNS does not require the use of domestic call centers, we found some State EBT contracts
include provisions to ensure the use of domestic call centers. Some States have enacted
legislation or issued executive orders to (1) prevent or curtail contracted work related to welfare
programs from being performed outside the United States, (2) provide in-State preference on
equal bids involving State contracts, or (3) require a vendor submitting a bid to disclose where
services will be performed under the contract. We found that a number of States have changed
their call center operations from foreign to domestic since full implementation of EBT in
June 2004.

In July 2004, “Good Jobs First,” a national policy resource center for promoting government
accountability, released a report9 on offshore outsourcing of State government work, focusing on
information technology and food stamp (now SNAP) call centers. (The report was prepared for
WashTech—the Washington Alliance of Technology Workers—a union for high-tech
employees.) According to the report, interviews with EBT officials in every State and the
District of Columbia revealed that 42 States and the District of Columbia were using foreign call
centers.

Our review disclosed that, since the release of the “Good Jobs First” report, use of foreign call
centers has greatly declined. For example, in 2004 at least six States incorporated in their EBT
contracts and Requests for Proposal (RFP)10 provisions against foreign outsourcing, and/or in


7
  This bill, S. 2531 (Senate bill), did not become law.
8
  7 CFR 274.12(b)(1) and (2), dated January 1, 2009.
9
  “Your Tax Dollars At Work…Offshore: How Foreign Outsourcing Firms Are Capturing State Government
Contracts.”
10
   A Request for Proposal is the solicitation form generally used by the State during the acquisition of EBT systems.
Audrey Rowe                                                                                                            5

favor of domestic operations. We found that only 15 States used foreign call centers in 2009,
and that number was further reduced to only 13 in 2010.11 (See exhibit A.)

With no Federal law or regulation prohibiting the use of foreign call centers, FNS was not
required, nor did it create, controls to ensure that the $290.5 million in SNAP administrative
funding, provided by the Recovery Act, would be used to support only domestic call centers.
However, the amount of Recovery Act funding that is used to support foreign call centers is not
significant in comparison to the total amount of funding provided by the Recovery Act for SAEs.

States do not specifically report call center costs to FNS. These costs are included together with
all other EBT operational costs and EBT equipment costs and accounted for as “EBT Issuance
Costs.”12

The following table presents OIG’s analysis of States that use foreign call centers and the
amount of Recovery Act funding for SAEs that was used by these States for EBT Issuance Costs,
in FYs 2009 and 2010:

              Number of          Number of States          Amount of           Recovery Act         EBT Issuance
     FY       States with        with Foreign Call        EBT Issuance          Funding for           Costs as a
             Foreign Call          Centers that             Costs (in            SAEs (in           Percentage of
               Centers               Received               millions)            millions)          Recovery Act
                                  Recovery Act                                                       Funding for
                                  EBT Issuance                                                          SAEs
                                       Costs
     2009           15                   5                     $1.8                 $144.5                1.2%
     2010           13                   3                     $4.013               $146.0                2.7%
                         Total                                 $5.8                 $290.5                2.0%

The $5.8 million in EBT Issuance Costs includes payments for foreign call centers, along with
other EBT Issuance Costs. However we could not determine the actual portion of EBT Issuance
Costs used to pay for foreign call centers.

Because of the limited number of States (five) that used foreign call centers and also received
Recovery Act funding for EBT Issuance Costs; the decreased use of foreign call centers by
States; the potential for increased costs associated with changing longstanding EBT contracts to
require the use of domestic call centers; the expiration of Recovery Act SAE funding after
FY 2010; and the fact there is no FNS requirement for States to use domestic call centers, we are
not making any recommendations.



11
   Florida and Hawaii changed their call centers to domestic operations for 2010.
12
   Other EBT Issuance Costs may include training, direct deposit for cash benefits, cash-only withdrawals, disaster
recovery, payphone surcharges, vault card inventory shipments, and point of sale equipment, as well as automated
FedEx and manual expedited overnight delivery charges.
13
   $2.7 million of the $4.0 million in EBT Issuance Costs for 2010 is attributed to Louisiana, which transitioned in
2010 from one processor and its EBT system to another.
Audrey Rowe                                                                                                    6

Scope and Methodology

To accomplish the audit objective, we interviewed State agency officials and FNS Headquarters
and regional office officials and reviewed documentation provided by them.

To determine the amount of Recovery Act funds for FYs 2009 and 2010 that may have been
used by States to pay for foreign call centers, we:

     ·   verified with FNS Headquarters that Recovery Act payments for call centers would be
         included in EBT Issuance Costs reported by the States to FNS on Forms SF-269,
         “Financial Status Reports,”
     ·   identified on Forms SF-269 EBT Issuance Costs for each State that received Recovery
         Act funding for SAEs,
     ·   obtained a list of States from FNS that used foreign call centers and Recovery Act
         funding for EBT Issuance Costs, and
     ·   interviewed and/or obtained documentation from State EBT Directors to verify the status
         of the States’ call center(s) (i.e., foreign or domestic).14

We performed our audit from May 2010 through February 2011. We conducted this
performance audit in accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our conclusions based on our audit objectives.




14
   We did not receive responses from Connecticut, Massachusetts, and Rhode Island. However, each of these States
is part of the Northeast Coalition of States which used the same RFP, requiring call centers to be located
domestically. Additionally, we did not receive a response from Puerto Rico, but verified through its EBT
processor’s website that the call centers are located in Puerto Rico.
Exhibit A - Table of Recovery Act-Funded EBT Issuance Costs and
EBT Contract Expiration Dates for States that Used Foreign Call
Centers for FY 2009 and/or 2010

                                  Call Center        Combined Recovery         Contract
           State                     Status           Act Funding for         Expiration
                                 FYs 2009 and        FYs 2009 and 2010          Date
                                      2010           EBT Issuance Costs
California                          Foreign                            $0       March 2015a
Colorado                            Foreign                            $0        June 2012
District of Columbia                Foreign                            $0   September 2011
                                 Foreign (2009)
Florida                                                               $0         June 2008b
                                Domestic (2010)
Georgia                             Foreign                           $0         June 2004c
Guam                                Foreign                           $0    September 2017d
                                 Foreign (2009)                  e
Hawaii                                                           $86,000         June 2017d
                                Domestic (2010)
Idaho                               Foreign                     $657,099         June 2010d
Louisiana                           Foreign                   $3,766,393         June 2016
Nebraska                            Foreign                           $0     February 2013d
Nevada                              Foreign                   $1,217,393         June 2018
Tennessee                           Foreign                           $0     February 2012
Virgin Islands                      Foreign                           $0      January 2012d
Washington                          Foreign                           $0        April 2014
Wyoming                             Foreign                      $89,105       March 2011
                        Total                                 $5,815,990
a
    With three 1-year options to extend.
b
    With five 1-year options to extend.
c
    With eight 1-year options to extend.
d
    With two 1-year options to extend.
e
    Comprised of $86,000 for 2009 and $0 for 2010.
